<html>
<title> - GLOBAL SUPPLY CHAINS, FORCED LABOR, AND THE XINJIANG AUTONOMOUS REGION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                GLOBAL SUPPLY CHAINS, FORCED LABOR, AND
                  THE XINJIANG UYGHUR AUTONOMOUS REGION

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 11, 2020

                               __________

 Printed for the use of the Congressional-Executive Commission on China
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


              Available at www.cecc.gov or www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-452 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS



House                                      Senate

JAMES P. McGOVERN, Massachusetts,    MARCO RUBIO, Florida, Cochair
Chair                                JAMES LANKFORD, Oklahoma
CHRIS SMITH, New Jersey              TOM COTTON, Arkansas
MARCY KAPTUR, Ohio                   STEVE DAINES, Montana
THOMAS SUOZZI, New York              TODD YOUNG, Indiana
TOM MALINOWSKI, New Jersey           DIANNE FEINSTEIN, California
VICKY HARTZLER, Missouri             JEFF MERKLEY, Oregon
BEN McADAMS, Utah                    GARY PETERS, Michigan
BRIAN MAST, Florida                  ANGUS KING, Maine

                     EXECUTIVE BRANCH COMMISSIONERS

                           Not yet appointed

                    Jonathan Stivers, Staff Director

                  Peter Mattis, Deputy Staff Director

                                  (ii)
                            
                            C O N T E N T S

                              ----------                              

                               Statements

                                                                   Page
Opening Statement of Hon. James P. McGovern, a U.S. 
  Representative from Massachusetts; Chair, Congressional-
  Executive Commission on China..................................     1
Statement of Hon. Marco Rubio, a U.S. Senator from Florida; 
  Cochair, Congressional-Executive Commission on China...........     3
Statement of Hon. Chris Smith, a U.S. Representative from New 
  Jersey.........................................................     4
Statement of Hon. Jeff Merkley, a U.S. Senator from Oregon.......     5
Statement of Hon. Jennifer Wexton, a U.S. Representative from 
  Virginia.......................................................     6
Statement of Hon. Thomas R. Suozzi, a U.S. Representative from 
  New York.......................................................     7
Nova, Scott, Executive Director, Worker Rights Consortium........     9
Han, Shelly, Chief of Staff and Director of Engagement, Fair 
  Labor Association..............................................    11
Vogt, Jeffrey, Rule of Law Director, Solidarity Center...........    12
Abbas, Rushan, Director, Campaign for Uyghurs....................    14

                            A P P E N D I X
                            
                           Prepared Statement

Abbas, Rushan....................................................    30

 
 GLOBAL SUPPLY CHAINS, FORCED LABOR, AND THE XINJIANG AUTONOMOUS REGION

                              ----------                              


                       WEDNESDAY, MARCH 11, 2020

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was held from 9:32 a.m. to 11:04 a.m. in 
Room 2255, Rayburn House Office Building, Washington, D.C., 
Representative James P. McGovern, Chair, presiding.
    Present: Senator Rubio, Cochair, and Senator Merkley, and 
Representatives Smith, Suozzi, and Wexton.

      OPENING STATEMENT OF HON. JAMES P. McGOVERN, A U.S. 
    REPRESENTATIVE FROM MASSACHUSETTS; CHAIR, CONGRESSIONAL-
                 EXECUTIVE COMMISSION ON CHINA

    Good morning, everybody, and welcome to today's 
Congressional-Executive Commission on China Roundtable on 
Global Supply Chains, Forced Labor, and the Xinjiang Autonomous 
Region.
    Today I am proud to announce the release of a new China 
Commission report detailing how global supply chains are 
tainted with goods and products made with forced labor in 
Xinjiang. I want to thank the Commission staff, including Luke 
Adams, Megan Fluker, Amy Reger, Scott Flipse, and Steve Andrews 
for their excellent research in this report. We are fortunate 
to have such an effective and committed staff to support human 
rights and the rule of law in China.
    Over the past several years, the Chinese government created 
and expanded a system of extrajudicial mass internment camps. 
As many as 1.8 million Uyghurs and members of other Muslim 
groups, including Kazakhs, Hui, and Kyrgyz have been 
arbitrarily detained in the camps and subjected to forced 
labor, torture, political indoctrination, and other severe 
human rights abuses. With the coronavirus outbreak, Uyghurs and 
other Muslim communities are even more vulnerable. There is 
great fear about the risk of disease spreading within the mass 
internment camps, where people are forced to live in close 
quarters under tremendous stress and with health issues.
    This situation raises serious humanitarian concerns and is 
another reason why the repression of the Uyghurs and other 
Muslim minority groups violates international rights standards. 
Just last week, the Simon-Skjodt Center for the Prevention of 
Genocide at the Holocaust Museum determined that there is a 
reasonable basis to believe that crimes against humanity are 
being committed. We know forced labor is widespread and 
systematic and exists both within and outside the mass 
internment camps. These facts are confirmed by the testimony of 
former camp detainees, satellite imagery, and official leaked 
documents from the Chinese government.
    We know that many U.S., international, and Chinese 
companies are complicit in the exploitation of forced labor 
involving Uyghurs and other Muslim minorities. Audits of supply 
chains are simply not possible because forced labor is so 
pervasive within the regional economy. Workers cannot speak 
freely and honestly about working conditions, given heavy 
surveillance and intimidation, and government officials face 
strong incentives to conceal the use of government-sanctioned 
forced labor. In June 2019, the State Department Trafficking-
in-Persons report found that Chinese companies were receiving 
government subsidies to open factories in close proximity to 
the internment camps and were exploiting forced labor.
    In September 2019, U.S. Customs and Border Protection 
banned the import of garments produced by Hetian Taida Apparel 
Company, due to the use of suspected prison or forced labor in 
its factories in the region. The Commission's new report finds 
that products made with forced labor include textiles, such as 
yarn, clothing, gloves, bedding, and carpet; electronics, 
including cellphones and computers; food products; shoes; tea; 
and handicrafts. Some companies suspected of directly employing 
forced labor or sourcing from suppliers suspected of using 
forced labor in public reporting include Adidas, Calvin Klein, 
Campbell's Soup, Coca-Cola, Esquel Group, Esprit, H&M, Kraft, 
Hines Company, Nike, Patagonia, and Tommy Hilfiger.
    We were glad to see that on Monday the Fair Labor 
Association directed its affiliates, including some of the 
companies mentioned previously, to review their sourcing 
relationships in Xinjiang and identify alternative sourcing 
opportunities. Current U.S. law states that it is illegal to 
import into the United States goods, wares, articles, and 
merchandise mined, produced, or manufactured wholly or in part 
by forced labor. Such merchandise is subject to exclusion and/
or seizure and may lead to criminal investigation of the 
importer. Unfortunately, products made with forced labor are 
still making their way into global supply chains and into our 
country.
    So today I am pleased to announce that Senator Rubio, 
Congressman Chris Smith, Senator Merkley, Congressman Suozzi, 
Congresswoman Wexton, myself, and other Members are introducing 
the Uyghur Forced Labor Prevention Act. This new legislation 
prohibits imports from Xinjiang to the United States by 
creating a rebuttable presumption that all goods produced in 
the region are made with forced labor, unless U.S. Customs and 
Border Protection certifies, by clear and convincing evidence, 
that goods were not produced with forced labor.
    The legislation also requires a secretary of state 
determination about whether forced labor in Xinjiang 
constitutes atrocities; requires a U.S. Government strategy to 
address the forced labor situation, including a list of Chinese 
companies engaged in forced labor and products produced 
therefrom; provides authority for targeted sanctions on 
individuals who knowingly engage with forced labor; and 
protects U.S. investors by requiring an additional SEC 
disclosure for companies working with Chinese entities engaged 
in human rights abuses, including forced labor.
    I want to thank the many groups who are supporting this 
legislation, including the AFL-CIO. Any U.S. or international 
company working in or with suppliers in Xinjiang should 
reconsider whether they want to be producing products in a 
region where there is evidence that crimes against humanity are 
being committed. It is long past time for companies to reassess 
their operations and supply chains and find alternatives that 
do not exploit labor and violate human rights.
    So today I'm pleased that we will hear from an expert panel 
to examine the impact of forced labor on global supply chains, 
as well as on U.S. and international consumers. And before we 
hear directly from our expert panel, I'm proud to recognize 
Cochair Rubio and other members of the Commission for their 
remarks. So I'll turn this over to Senator Rubio now.

  STATEMENT OF HON. MARCO RUBIO, A U.S. SENATOR FROM FLORIDA; 
      COCHAIR, CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Thank you. And I think we're all just learning how to do 
the fist-bump, elbow-bump greeting.
     First of all, thank you all for being part of this very 
important discussion. I want to echo first what the chairman 
talked about with our staff. They've put together a very 
powerful document. And it's a document that should leave zero 
doubt about the evil policies and practices of the Communist 
Party of China toward Uyghurs, and toward other Muslim minority 
groups. The chairman outlined, through the names of various 
companies that he disclosed--I guarantee you there are products 
from those companies in this very room right now, because we've 
all bought them and we've all had to buy them.
    But it's injected forced labor into American and global 
supply chains. It's injected forced labor under the Christmas 
tree. It's injected forced labor into the boxes we give over 
for birthdays. And it's injected forced labor into many of the 
things that we buy on a daily basis. And this is a disturbing 
reality. It's one that we need to confront and we need to face. 
And so the introduction of this bill today, the Uyghur Forced 
Labor Prevention Act, is important. And the chairman's outlined 
all the details of it, but the core of it is that it shifts the 
burden of proof to companies that insist on producing in this 
region. It shifts the burden of proof with the presumption 
that, given these practices and what's detailed in this report, 
we should assume that anything that's produced in this region 
is produced through forced labor.
    By the way, these practices of the Chinese Communist Party 
in Xinjiang--this is one of the world's largest human rights 
tragedies. It remains unimaginable, frankly, that this is 
happening in the year 2020, where you have hundreds of 
thousands of people subjected to military discipline, to so-
called reeducation--or what we know as political reeducation 
and indoctrination. We have families that are being separated, 
children being placed in orphanages and boarding schools, the 
elderly forced into nursing homes, people forced to change 
their names and abandon their identities. And commercial 
satellite imagery shows that factories have and are being 
placed next to or right inside these camps. And there's also 
mounting evidence of forced labor in the cotton industry, in 
agriculture, and in other light manufacturing.
    The widespread forced labor documented in the report 
clearly constitutes serious crimes sanctioned, perpetrated, 
approved, and directed by the Chinese Communist Party through 
their government. The Commission, in fact, noted in our annual 
report that what is taking place there probably rises to the 
level of a crime against humanity. And we're not the only ones. 
As was mentioned previously, the Holocaust Museum just last 
week concluded that what the Chinese government is doing to 
Uyghurs and other Muslim minorities is a crime against 
humanity.
    Words, however, are not enough. And we must act and respond 
quickly to these horrific crimes being committed by the Chinese 
Communist Party. And this bill, I believe, does that. And we 
hope that other countries will join in working on similar 
legislation to ensure that the Chinese Communist Party and the 
people responsible for this are collectively and individually 
held accountable. Because this crisis will demand an 
international response. And I will predict that history will 
not look favorably on those who knew about it and did nothing, 
and stayed silent, or even worse were complicit in these 
crimes.
    And so I want to thank all of you for being here. Again, I 
want to thank our staff. And I want to thank you, Mr. Chairman, 
and all the members who have come. Thank you.
    Chair McGovern. I am now happy to turn this over to 
Congressman Chris Smith of New Jersey, who is our top 
Republican on the Commission on the House side, who is also the 
cochair of the Tom Lantos Human Rights Commission.

                 STATEMENT OF HON. CHRIS SMITH,
             A U.S. REPRESENTATIVE FROM NEW JERSEY

    Thank you very much, Mr. Chairman. And Chairman Rubio, 
great to see you as well. And this is a historic bill. I do 
believe it'll pass. I hope it'll become law.
    You know, in 1991 Congressman Frank Wolf and I, soon after 
Tiananmen Square, went to Beijing Prison No. 2 in Beijing, a 
prison where there were at least 40 Tiananmen Square activists 
who were being forced to make jelly shoes and socks for export 
to the United States and elsewhere. We took copies, we took 
samples, and we went to Customs and got an import ban pursuant 
to the Tariff Act--the Smoot-Hawley Act of 1930. And that was 
about it, despite the fact that gulags, laogai all over China 
were making goods for export to the United States.
    There was an MOU in effect--Bush used to tout it, Clinton 
used to tout it--that wasn't worth the paper that it was 
written on because when we had information we had to go to the 
Chinese police and say: Will you investigate? And they would 
come back 60 days later or so and say: ``No problem here.'' I 
remember meeting with the customs people in Beijing on that 
trip. And they were like the Maytag repairman. They had nothing 
to do. There was no ability to investigate.
    That is why the most important part of this bill, 
recognizing that these are crimes against humanity being 
committed against the Muslim Uyghurs--you know, this is a 
horrific tragedy, as both the chairman and the Senate chairman 
pointed out. The Holocaust Museum has called these crimes 
against humanity. It is clear these are horrific crimes. The 
rebuttable presumption is the core to this important piece of 
legislation. It will say the presumption of innocence shifts, 
and how they've got to prove, those who want to import these 
products, that their supply chain is clear and clean of this 
kind of horrific behavior.
    This is a great bill. We are introducing it today. It's a 
privilege to be part of this coalition. It's bipartisan and 
bicameral. And we have four great people who will be bringing 
further details to bear on this important issue. We need to 
stand in solidarity with the Uyghurs and all oppressed peoples. 
Thank you.
    Chair McGovern. I'm now happy to introduce another member 
of our Commission from the Senate, Senator Jeff Merkley of 
Oregon.

                STATEMENT OF HON. JEFF MERKLEY,
                   A U.S. SENATOR FROM OREGON

     Well, good morning, everyone. And thank you to everyone 
who's worked so hard to put this report together and to design 
this bill, the Uyghur Forced Labor Prevention Act. Your efforts 
have kept it front and center in many people's minds when the 
Chinese authorities would certainly much rather have swept it 
under the rug. Nothing is more dear and more sacred to us here 
in America than the concept of freedom. We have fought for our 
own freedom and we've gone to war to ensure the freedom of 
others around the world. We have marched. We have rallies. We 
have protested. We have boycotted. And now we need to stand up 
for those who are enslaved in China.
    Time and time again we've stood up to dictators and tyrants 
who have threatened freedom. We cannot sit on our hands and do 
nothing as China repeatedly and systematically abuses the human 
rights of the Uyghurs and other Muslim ethnic minorities. For 
years, we have seen hundreds of thousands, even millions of 
individuals interned, tortured, interrogated, and brutally 
forced into labor camps by the Chinese government, stripping 
individuals of their freedom, their future, and their culture. 
And as we know from this latest report, this isn't an issue 
that is improving. In fact, it's getting worse.
    This system of slavery is expanding. The internment camps 
are expanding. Between April 2017 and August of 2018, satellite 
imagery shows 39 reeducation camps have tripled in size. 
Without knowing it, Americans all across our country have a 
connection to these human rights abuses through the products we 
buy. Products, including popular name brands, have been made--
in whole or in part--in the Xinjiang region. And no matter how 
much they try to make sure that forced labor is not part of the 
supply chain, the access to information, the lack of 
transparency, makes it impossible to be sure.
    Just look at cotton. China is one of the world's largest 
producers. Eighty percent of it comes from this region. How 
much of that cotton is picked by Uyghurs and oppressed 
minorities? There's no real way of knowing. Until we can know 
and until we can do due diligence and ensure that supply chains 
are not, in fact, comprised of enslaved workers, and until we 
can ensure the freedom and liberty of oppressed minorities in 
China, we should do everything possible to ensure that our 
nation and the American people are not complicit participants 
in the abuse of their human rights.
    That's why I'm proud to partner with my colleagues here on 
this bill blocking the importation of items produced in this 
region. We need to tackle every aspect of this abuse, and this 
bill is an essential and urgent step forward. I'm pleased to be 
here with my colleagues making this case. Thank you.
    Chair McGovern. I now am pleased to introduce 
Representative Jennifer Wexton of Virginia, who has emerged as 
a champion for human rights in this Congress.

                 STATEMENT OF JENNIFER WEXTON,
              A U.S. REPRESENTATIVE FROM VIRGINIA

    Good morning. I represent a district in Northern Virginia 
that includes one of the largest populations of Uyghur Muslims 
in the United States. And before I was even sworn in as a 
member of Congress, I attended a forum at a local mosque, the 
ADAMS Center, where I met Uyghur Muslims living in the United 
States, Ms. Abbas being one of them. And I heard story after 
story of the horrors that their friends and families in 
Xinjiang had been subjected to, how they had been disappeared 
from their homes and placed in reeducation camps, how they had 
in many instances been forced to renounce their faith and to 
eat pork or drink alcohol.
    And then once their reeducation was complete, how they were 
forced to work as part of a work training program. This, 
despite the fact that many of those who were disappeared were 
physicians, professors, and other professionals. And how the 
fruits of their forced labor have turned up in so many products 
here in the United States--in the clothes that we're wearing, 
in the shoes that we're wearing, in the food and tea that we 
eat and drink, and in the electronics that we use every day.
    So I want to thank the CECC and the NGOs who brought this--
who made this report happen. It's chilling. It needs to be 
public. We need people to be aware of what is happening. This 
rebuttable presumption, I cannot overstate how important that 
rebuttable presumption is going to be in terms of disclosures 
and everything else. Now, as a member of the House Financial 
Services Committee, the disclosure part of it is very important 
to me as well, because I believe that once U.S. companies, 
shareholders, and consumers are aware of the horrors that are 
going on in Xinjiang and beyond, they won't want to be a 
participant in that system.
    So this is fantastic legislation. I want to thank Senator 
Rubio, Congressman McGovern, and the entire CECC for bringing 
it to our attention and for introducing this legislation, which 
I proudly support. Thank you.
    Chair McGovern. And our final speaker before we go to the 
panel is a member of our Commission, another powerful voice for 
human rights in Congress, Representative Tom Suozzi of New 
York.

                 STATEMENT OF THOMAS R. SUOZZI,
             A U.S. REPRESENTATIVE FROM NEW JERSEY

    Thank you, Jim. And thank you to all of my colleagues for 
their good work here.
    Good morning. I say this at every one of our gatherings 
that, you know, in America, we've always believed, since the 
1970s--since Nixon went to China--that the more China was 
exposed to the West, the more they were exposed to our way of 
democracy, the more they were exposed to Western economies, 
they'd become more like us. That just hasn't happened. And we 
have to keep on repeating the same thing over and over and over 
again, because most Americans don't realize what's actually 
transpiring right now in China. It's horrific.
    Whether it's asking the Uyghur Muslims to eat pork, or 
making Uyghur Muslims eat pork during Ramadan, or whether it's 
the exile of the Tibetan government, or whether it's the 
treatment of the students in Hong Kong, or most importantly 
today the forced labor in Xinjiang, this is happening right 
now, as we speak. And people are suffering because of it. And 
this bill, which I'm so happy to be an original cosponsor of, 
the Uyghur Forced Labor Prevention Act, is so important because 
the only thing that the Chinese government will recognize is if 
we prevent them from continuing to export these goods made 
using forced labor into our marketplace.
    I mean, it's hard to imagine. It's hard for anybody in 
America to believe that there are forced labor camps, people 
being forced to work with no pay, producing goods that are 
being shipped into the United States of America. And it's names 
that you've heard of. It's Adidas. It's Calvin Klein. It's 
Campbell's Soup Company. It's Costco. It's Nike. It's H&M. It's 
Patagonia. It's Tommy Hilfiger. And it goes on and on. So this 
bill is an important step forward in bringing attention to this 
very real situation that's happening, and in getting the 
attention of the Chinese Communist Party as well.
    So I want to thank my colleagues for their good work. I 
want to thank the staff for the good work. I just want to 
remind people that--you know, I just went to the 75th 
anniversary of the Battle of the Bulge a few months ago. And in 
preparation for that I read a book called ``Band of Brothers,'' 
which, you know, they did a TV series about and people have 
heard of it. And when the U.S. soldiers were literally days 
away, and only miles away from the concentration camps, 
millions of people had already been killed. They were literally 
miles away, days away from liberating the camps, they were 
debating among themselves: Is this really happening, or is this 
just propaganda? And we see now that, you know, the Holocaust, 
which has been so well documented over such a long period of 
time, people question it today.
    It's going to take a lot of work and a lot of effort for us 
to continue to beat this drum to get people to acknowledge 
these atrocities that are taking place in China right now, as 
we speak. So that's why the work of the folks standing up here 
and so many others, the folks here sitting down, and all the 
staff that have worked on this, and all of you who are involved 
in this issue, is so important--to call the attention of the 
world to this horrible injustice. Thank you.
    Chair McGovern. Thank you very much. And let me again urge 
everybody to read this important report. Again, I want to thank 
the staff for an excellent job. This is a very powerful report. 
I hope all my colleagues will read it. And I--and let me just 
make a couple--I feel bad that everybody's standing here. We 
should've had a bigger room. But there are some empty chairs up 
here if people want to sit up here.
    Let me just conclude with this. You know, you've just heard 
from a very diverse group of elected officials up here who 
represent both political parties, who represent vastly 
different ideologies. Some of us are very liberal. Some of us 
are very conservative. A lot of issues we can't come together 
on. We have come together on this issue. And I want to 
emphasize that point. And I'm hoping that the U.S. business 
community is listening carefully. We are together on this. And 
we believe it is long past time for companies to reassess their 
operations and supply chains and find alternatives that do not 
exploit labor and violate human rights.
    And we are introducing this legislation today. And I want 
to assure people that this is not merely a press release. We 
intend to push this bill through the various committees, move 
it to the House floor, move it to the Senate floor for a vote, 
pass it, and send it to the President for his signature. So 
this is not just us getting together and condemning the human 
rights atrocities and the forced labor in Xinjiang and against 
the Uyghurs. We are serious about moving this. And so to all 
those in the business community who are doing business in a way 
that will make them vulnerable to this legislation, now's the 
time to reassess. We will be reaching out to them individually.
    There will be more hearings going on, not just in the China 
Commission but we have people on the Financial Services 
Committee. We have--we were talking to the Ways and Means 
Committee. And I'm on the Rules Committee. And we're going to 
make sure this goes to the House floor. So I just say that 
because this is a serious effort and this is an important 
moment. And I want the U.S. business community, the 
international business community--and I want China to know how 
serious this is. And now I'm pleased to introduce our esteemed 
panel of experts this morning.
    Mr. Scott Nova is the executive director of the Worker 
Rights Consortium, which is an independent nonprofit 
organization that assesses working conditions in global supply 
chains on behalf of universities, pension funds, and other 
public entities. The Worker Rights Consortium has been 
conducting labor rights investigations of factories in China 
for nearly 20 years. The organization documented the use of 
detainee labor, and its research has linked multiple brands and 
retailers to forced labor in the region.
    Ms. Shelly Han is chief of staff and director of engagement 
at the Fair Labor Association. Ms. Han has worked with NGOs 
around the world as a senior policy advisor at the Commission 
on Security and Cooperation in Europe from 2006 to 2016. She 
also worked in the executive branch in policy positions on 
trade, national security, and immigration at the Department of 
Commerce and Department of Homeland Security. Prior to joining 
the government she worked in the private sector helping 
companies do business and do the right thing in international 
markets.
    Mr. Jeffrey Vogt is the rule of law director at the 
Solidarity Center, the largest U.S.-based international 
workers' rights organization, helping workers attain dignity on 
the job and greater equity at work and in their community. He 
supports trade unions on labor law and policy and advocacy 
before national, regional, and international tribunals. Jeff 
has also served as the legal director of the International 
Trade Union Confederation, a global organization that 
represents over 200 million workers in 162 countries and 
territories.
    And finally, Ms. Rushan Abbas is the director at the 
Campaign for Uyghurs, which she founded. She started her 
activism work while she was a student, participating in pro-
democracy demonstrations at Xinjiang University in 1985 and 
1988. Since her arrival in the United States in 1989, Ms. Abbas 
has been an ardent campaigner for human rights of the Uyghur 
people. She was vice president of the Uyghur American 
Association for two terms and is a former reporter at Radio 
Free Asia. In September 2018 her sister, Dr. Gulshan Abbas, was 
abducted and became a victim in China in retaliation for 
Rushan's activism here in the United States.
    I want to thank you all for being here today, and we look 
forward to hearing from you on this important topic. And again, 
if people want to sit up here, they're more than welcome to do 
so. I just feel bad that everybody's standing. But I appreciate 
you all being here. And I'll turn this over to you.

                    STATEMENT OF SCOTT NOVA,
          EXECUTIVE DIRECTOR, WORKER RIGHTS CONSORTIUM

    Chairman McGovern, Chairman Rubio, thank you for convening 
this roundtable and for the opportunity to speak this morning. 
The Chinese government's brutal campaign of oppression in the 
Xinjiang Uyghur Autonomous Region, including widespread forced 
labor, has been exposed in grim detail through firsthand 
refugee testimony and the Chinese government's own documents. 
Forced labor is integral to the government's strategy to 
establish social control and cultural dominance through force 
over the Uyghur people and other Turkic and Muslim groups.
    While the government's clampdown on information has made 
documentation at specific workplaces a daunting task, we know--
both from the specific documented cases and from the vast scope 
of the government's program of forced labor as social control--
that the risk is broad. That virtually any workplace in the 
XUAR, whether a cotton farm, a yarn spinning mill, or other 
industrial worksite, is a potential locus of forced labor. The 
implications for the apparel industry in particular are 
profound, because many of these farms and factories are links 
in the supply chains of major apparel brands and retailers.
    Every year, the apparel industry imports more than 10 
billion cotton garments into the United States. Roughly one in 
five is produced, at least in part, in the XUAR. The apparel 
industry sources 20 percent of its global cotton supply from 
the XUAR. The Chinese government has established a major yarn 
industry in the region to further supply apparel brands. It is 
important to understand that the fabric that Chinese textile 
mills fashion out of Xinjiang cotton and yarn feeds not just 
garment factories in China but factories across the world, from 
Bangladesh, to Vietnam, to Central America.
    Further embroiling the apparel industry in the human rights 
crisis in Xinjiang, several leading Chinese companies with ties 
to global brands are active participants in the Chinese 
government's labor schemes. This includes Esquel Group, a 
partner of more than a dozen U.S. brands, Luthai Textiles, 
Youngor Group, Huafu Fashion, and Shandong Ruyi, among others. 
For apparel brands and retailers, the risk of complicity in 
forced labor is enormous.
    At the same time, the mechanism companies would normally 
use to address labor rights risk in the supply chain, 
conducting workplace inspections or audits, is no longer 
feasible in the XUAR. Interviews with workers are an essential 
element of any audit, especially when the issue is whether the 
worker's labor is voluntary. Such interviews are only 
meaningful if workers can speak candidly. No Uyghur worker in 
the XUAR can possibly feel safe speaking candidly. The 
government's ubiquitous surveillance apparatus makes the term 
``confidential interview'' an oxymoron. And every worker knows 
that contradicting the government's official position--that 
there is no forced labor in the XUAR--will guarantee harsh 
reprisals.
    The only answer a worker can safely give to the question of 
whether her labor is voluntary is ``yes.'' Attempts to conduct 
audits under these circumstances have yielded predictable 
results. The Hetian Taida Apparel Company operated a factory in 
a reeducation camp in Hotan and another a few hundred yards 
from the camp. Under the auspices of two labor rights 
certification bodies, Worldwide Responsible Accredited 
Production and Business Social Compliance Initiative, auditors 
assessed the factory outside the reeducation camp and gave it a 
clean bill of health as to forced labor. They did so despite 
the fact that the parent company operated a facility inside an 
internment camp, despite the facility's location next to this 
camp, and despite the presence of what the Chinese government 
calls ``camp graduates'' among the workforce. The auditors 
interviewed workers, who unsurprisingly did not choose that 
moment to denounce their employer and the Chinese government as 
forced labor profiteers. In October, Customs and Border 
Protection issued a detention order against all goods from 
Hetian Taida because of overwhelming evidence that it uses 
forced labor.
    The Wall Street Journal exposed the involvement of Huafu 
Fashion, a major yarn manufacturer, in forced labor in the town 
of Aksu. Huafu promptly commissioned an audit from a leading 
audit firm called Bureau Veritas. The result was another clean 
bill of health. Bureau Veritas was also responsible for an 
audit that found no forced labor at a glove factory called Yili 
Zhuowan Garment, where credible refugee accounts had already 
proven that forced labor was present. At this point, no firm 
should be conducting audits in the XUAR. The only purpose labor 
rights audits can serve in the XUAR now is to create the false 
appearance of due diligence and thereby facilitate continued 
commerce in products made with forced labor.
    Given the substantial risk of forced labor at any farm or 
factory and the absence of credible due-diligence methods, the 
only option for brands and retailers that want to comply with 
U.S. law and their own ethical standards is to exit the XUAR at 
every level of the supply chain. While heavy dependence on 
Chinese cotton, yarn, and fabric make exit a cumbersome 
proposition, this cannot justify complicity in what the U.S. 
Holocaust Memorial Museum has deemed crimes against humanity, 
nor can it excuse breaches of U.S. law. No apparel brand wants 
to be associated with the abuses taking place in Xinjiang.
    Bearing in mind that it won't happen overnight, brands and 
retailers must work with urgency to remove XUAR-produced 
content from their supply chains and to sever ties with Chinese 
companies implicated in forced labor. This is a goal they 
should accomplish in months, not years. Stronger action from 
the U.S. Government to block imports from the XUAR is also 
crucial. Thank you.

            STATEMENT OF SHELLY HAN, CHIEF OF STAFF
       AND DIRECTOR OF ENGAGEMENT, FAIR LABOR ASSOCIATION

    Good morning. Chairman McGovern, Chairman Rubio, esteemed 
members of the Commission, I want to thank you for the 
opportunity to be here today on this important panel on forced 
labor in China. I'm pleased to be here. And as a matter of 
organizational policy, I just need to state that the Fair Labor 
Association (FLA) cannot endorse legislation, but we're really 
looking forward to reading the bill.
    As the world has learned about the human rights abuses in 
Xinjiang, and particularly against the Uyghurs and other ethnic 
minorities, the connection to global supply chains, including 
evidence of forced labor, is really clear. The FLA works with 
companies, universities, and civil society organizations to 
improve labor conditions in global supply chains. And I want to 
state clearly that forced labor is not acceptable anywhere in 
our affiliate supply chains.
    When a company finds forced labor, it can usually take 
immediate action to not only stop the abuse but also find ways 
to effectively remediate the labor violation for the worker. A 
critical aspect of this remediation is direct engagement with 
the worker. Through engagement, the company gets firsthand 
information and can tailor any remediation of the abuse to what 
is appropriate for that worker in that circumstance.
    In the context of forced labor in Xinjiang or in other 
parts of China, Uyghurs are not able to speak up or speak out 
on their own behalf. That means that companies cannot engage 
with them in the detection or remediation of forced labor, 
which raises the risk not only for workers but also for 
companies. We have provided guidance to our affiliates over the 
past year and updated it as new information becomes available. 
In January of this year, we informed companies that due 
diligence in Xinjiang would not be able to reliably detect or 
rule out forced labor.
    The shift was based on three key factors. The first is 
based on the Chinese government's restrictions on travel to 
Xinjiang and the heavy surveillance presence there. The second, 
we know that workers, factory management, and auditors may not 
be able to freely communicate with brands or auditors. And then 
three, we also know that suppliers and brands may not be able 
to effectively remediate any forced labor that is found.
    Last week, the FLA directed our affiliates to take three 
actions. The first is to review their direct and indirect 
sourcing relationships. The second is to identify alternative 
sourcing opportunities. And the third is to develop time-bound 
plans to ensure that their sourcing is in line with FLA 
principles, including the prohibition of forced labor.
    This directive applies to sourcing from Xinjiang, 
everything from raw material to finished goods. It also applies 
to production that may take place in another part of China. And 
it also applies to production that takes place in third 
countries, such as Vietnam or Cambodia, where the supplier is 
sourcing raw materials, yarn, or fabric from Xinjiang. We all 
agree that companies cannot be complicit in forced labor. 
Companies must do their part, and we are working with them on 
that effort.
    We also know that this is not an issue that companies alone 
can fix. It will take the collective action of business, 
governments, multilateral organizations, civil society, unions, 
and others to address the broader policies that are leading to 
forced labor. Because the ultimate responsibility lies with the 
Chinese government for resolving this issue, we'd like to 
suggest that the CECC consider some specific steps the U.S. 
Government can take to address this directly with the Chinese 
government.
    First, we believe the U.S. Government should actively 
engage with the European Union and other governments 
bilaterally to effectively engage the Chinese government. 
Forced labor is not showing up only in U.S. supply chains. By 
solely focusing on U.S. supply chains we risk losing the 
critical mass that we need to focus the attention of the 
Chinese government and effectively address the issue.
    Second, the U.S. Government should establish a diplomatic 
channel to address this issue directly with the Chinese 
government. It could set up a bilateral dialogue focused 
specifically on prison labor and forced labor, picking up where 
the two governments left off some years ago with the--as 
Congressman Smith mentioned--the 1992 MOU, because if forced 
labor is not on the agenda, we will not see change.
    Additionally, it's not clear that the Chinese government 
and Chinese suppliers specifically fully understand the changes 
to the Tariff Act that took place in 2016 and how the nexus 
between the so-called poverty alleviation program applies to 
forced labor. While companies have done a lot to educate their 
suppliers on this change and what the risks are, the suppliers, 
we believe, and also the Chinese government, still don't 
understand what those changes are and how impactful they have 
been. So the U.S. Government can help facilitate education in 
China on this new legal requirement.
    Thank you again for this opportunity. And I look forward to 
your questions.

                   STATEMENT OF JEFFREY VOGT,
            RULE OF LAW DIRECTOR, SOLIDARITY CENTER

    Dear Chair Representative McGovern, dear Cochair Senator 
Rubio, and dear members of the Commission, and my co-panelists, 
thank you for the opportunity to participate in this roundtable 
today.
    The Xinjiang Uyghur Autonomous Region of China is home to 
over 13 million Uyghur and other Turkic Muslim peoples. The 
government has claimed erroneously that the population 
constitutes a domestic security threat and therefore has 
implemented a program of so-called reeducation and de-
extremification. However, as many have reported, a key 
component of this program is the use of forced or compulsory 
labor, including in prisons and internment camps in the XUAR, 
as well as the mobilization of workers from the XUAR to 
manufacturers elsewhere in China.
    Objects made in whole or in part from forced or compulsory 
labor now include textiles and apparel, agricultural goods, 
electronics, and many other manufactured consumer goods, which 
are exported around the world, including to the United States. 
This program in its design and execution brazenly violates 
numerous international human rights norms and likely 
constitutes crimes against humanity, as has been said before.
    A reeducation program typically involves prison-style 
detention, with some vocational training, indoctrination, and 
finally release to factories in nearby industrial parks or camp 
factories. The political reeducation is an extrajudicial system 
that operates outside the criminal justice and regular prison 
system. Government documents state that the released reeducated 
minorities will be part of the manufacturing workforce and are 
expected to assist the government in meeting its quota 
requirements. These reeducation facilities are, quite clearly, 
internment camps, complete with police stations, high 
surrounding walls and watchtowers, a surveillance and 
monitoring system, and other apparatus commonly found in 
prisons.
    There's a clear government policy to forcefully ensure that 
former detainees are under the control of the government 
through labor-intensive manufacturing jobs at factories built 
in and near such centers, thereby ensuring a continuous implied 
threat of return to the internment camp for refusal to 
participate in this manufacturing. The exact number of former 
detainees who have been coerced into working in a factory is 
not known, but estimates based on interviews and government 
statements are well over 100,000 former detainees who are 
forced to work in garment and textile factories.
    In addition to those in internment camps, there are some 
within the traditional prison system. The Xinjiang Production 
and Construction Corps administers its own prison system and 
factories and forces its own prison population to conduct 
commercial activities, many in cotton harvesting and 
production. XPCC was the enterprise to establish the Xinjiang 
cotton industry, and some estimates suggest that XPCC, through 
its forced prison labor, produces about a third of China's 
overall cotton output. This reeducation program is further 
carried out in an environment of total surveillance, where 
residents of the XUAR are subject to multiple and overlapping 
systems of digital and in-person monitoring, collection of 
biometric data, and even homestays by authorities. Those who 
refuse to comply with public officials face severe retaliation 
to themselves and to their families and communities.
    The human rights situation related to the XUAR is a very 
serious concern for the global labor movement. The state-
sponsored internment and forced labor of a population because 
of their ethnic or religious beliefs is unconscionable and has 
been widely condemned by unions worldwide. The government is in 
serious breach of numerous international human rights 
instruments, including, obviously, those of the ILO--the 1998 
ILO Declaration on Fundamental Principles and Rights at Work 
and ILO Convention 122 on employment policy, which is one of 
the few conventions China has ratified, as well as the 
International Covenant on Economic, Social and Cultural Rights, 
which it has also ratified.
    The government's mobilization of forced labor for the 
export of manufactured goods to the U.S. likely violates 
several U.S. laws, including 19 U.S.C. 2411, better known as 
section 301 of our Trade Act, which allows the USTR to take 
action against an act, policy, or practice of a foreign country 
that is unreasonable or discriminatory and burdens or restricts 
U.S. commerce, with any form of forced or compulsory labor 
being deemed unreasonable.
    The import of such goods also violates 19 U.S.C. 1307, 
which allows the CBP to issue and withhold release orders to 
exclude or seize goods and to take civil action against 
importers. And of course, the Uyghur Forced Labor Prevention 
Act would further empower CBP to act accordingly. The CBP has 
issued one WRO with regard to the import of goods from Hetian 
Taida, but much more obviously can and should be done, as 
members of this Commission have called for today.
    Further, companies who source from the XUAR may also be 
violating the civil and criminal provisions of the Trafficking 
Victims Protection Act, which in 2008 was amended to include 
supply chain language which would sanction those who knowingly 
benefit financially or who receive anything of value as a 
result of their participation in a venture which that person 
knew or should have known has engaged in an act which is in 
violation of that chapter, which would include, of course, 
forced labor.
    The global labor movement hopes and expects the U.S. to 
take action using these and other tools at its disposal and to 
encourage other major importers of goods from the XUAR, 
including the European Union, to take similar action. U.S. 
brands must, of course, also accept their responsibility to 
extricate themselves immediately from the XUAR by ensuring that 
none of their suppliers are using inputs linked to the 
government-sponsored reeducation program. Thank you.

                   STATEMENT OF RUSHAN ABBAS,
                 DIRECTOR, CAMPAIGN FOR UYGHURS

    Thank you for the opportunity to speak about China's 
genocide and the world's largest government-directed human 
trafficking forced-labor network. What's happening to Uyghurs 
and other Turkic people is common knowledge by now. The Uyghur 
ethnic identity is stigmatized, and their religion is 
demonized. Racism and cutting-edge technology are used as a 
weapon of Chinese nationalism to exterminate my people, while 
challenging human dignity and basic survival rights.
    My sister, Gulshan Abbas, a retired medical doctor, is one 
of these victims. She was abducted by the Chinese government in 
September 2018 in retaliation for my speaking out about China's 
human rights abuses in East Turkestan at the Hudson Institute. 
China has allowed no contact with her since her disappearance 
and has not even provided proof of life or her whereabouts. 
China claims that these sprawling camps are humane vocational 
job training centers. This is a lie. Detainees include medical 
doctors, academics, businesspeople, professionals, as well as 
young people and the elderly--none of whom need job training, 
while researched reporting indicates these camps serve to break 
people's spirit and turn them into an abundant supply of forced 
labor.
    My question is this: Who is the buyer of my sister's forced 
labor? The Gap, L.L. Bean, H&M? Is my sister in one of your 
contractors' factories? Are you complicit in China turning a 
doctor into a textile worker as a forced laborer in your 
factories? Nike, is one of your largest factories in China 
using my sisters-in-law as part of its Uyghur forced labor from 
Hotan? One of them is a nurse, and the other is a teacher. Were 
they transformed by the camps into modern-day slaves to produce 
your shoes? What about younger Uyghur women forced to work 
thousands of miles from home so that they would not bear 
children, like my third missing sister-in-law?
    When my sister was taken by China, I had no idea that 
finding her again would involve finding out that U.S. companies 
are so shockingly complicit in such disappearances. Seventy-
five years ago companies like Siemens, BMW, and Volkswagen used 
forced Jewish labor, and are now once again complicit in their 
suppliers' use of forced Uyghur labor, making today's 
concentration camps a profitable venture. But this time the 
rest of the world's top companies have joined in such 
complicity.
    U.S. law requires Global Magnitsky sanctions on individual 
offenders and prohibits any trade in products made with forced 
labor. So who's preventing enforcement of the law? Has Xi 
Jinping been granted veto power over U.S. laws? Exactly what 
part of ``never again'' translates into not sanctioning the 
Chinese perpetrators of today's concentration camps, and not 
separating them from their enablers?
    China's coronavirus response is highly concerning, as 
Uyghur forced labor is being used as disposable to reopen idled 
factories and to be sent to Wuhan. China's rigid totalitarian 
reaction created this global pandemic. Today, China is failing 
to empty its concentration camps for people's safety with the 
current spread of Wuhan virus. It saddens me to see the venal 
ruthlessness of the world communities, as they are idle against 
this genocide of my people. Not only is China getting away with 
genocide, it is getting rewarded with hosting the 2022 Winter 
Olympics.
    It angers me to see my sister and the other millions of 
innocent Uyghurs becoming the human collateral of international 
trade deals and the economic benefits. It worries me to see 
China become a power able to strongarm the world with trade 
threats, the power of the Belt and Road Initiative, debt-trap 
diplomacy, and the manipulation in the United Nations. 
Furthermore, China is bribing and leveraging some politicians, 
the media, and scholars around the world and has successfully 
silenced international condemnation of its shameful crimes.
    What do you think is going to happen if this remains 
unchecked? Continuing to do business as normal with China today 
is being complicit with genocide and supporting the spread of 
China's totalitarian communistic nationalism to the world. 
History will remember those who acted, and those who failed to 
do so. We are all responsible for what happens next. Thank you.
    [Applause.]
    [The prepared statement of Ms. Abbas appears in the 
Appendix.]
    Mr. Stivers. Thank you. Thank you, panelists, for those 
compelling presentations. We'll now start the question-and-
answer portion of the event. First I'd like to recognize 
Congressman Smith for on-the-record questions.
    Representative Smith. Thank you so very much. Thank you to 
this tremendous panel for what you have helped enlighten us 
with, to provide additional details, too. I have a couple of 
questions. And to Ms. Abbas, so sorry for your sister. And, you 
know, the Chinese government is so cruel that not only do they 
incarcerate people, and jail and torture people who speak out 
in-country, but when someone speaks out here--and you worked 
for Radio Free Asia--many of the journalists there have seen 
their entire families rounded up and sent to these forced labor 
camps. I'm not sure there are too many precedents anywhere in 
history where that kind of massive incarceration--Rebiya Kadeer 
has had her entire extended family--and she's not unique in 
that--rounded up and put into these reeducation/forced labor 
camps. And it's just--it's despicable. And for us to be 
complicit in any way, shape, or form in like manner is terribly 
wrong.
    To Mr. Nova, I have a couple questions to you real quick. 
You know, you talked about the auditors and the Achilles heel 
in decades of auditors going to China, interviewing people. Not 
just in Xinjiang, but elsewhere as well, coming back with 
glowing reports. I chaired hearings in the past with Apple and 
others, where we got the auditor's report and then 
simultaneously we looked and we found out that it was nothing 
but a sham. How many of those have been allowed into Xinjiang 
in recent days? What--how seriously does anybody take an audit 
now? And I'm so glad you have punched holes in the fact of the 
false appearances of due diligence. You know, it looks great to 
the shareholders. ``We did it.'' And you didn't do anything. If 
anything, you enabled by doing this false audit.
    Shelly, if I could ask you--and Shelly, it's great to see 
Shelly Han. She worked with great distinction as a senior 
staffer of the Commission for Security and Cooperation in 
Europe when I chaired it. And she talked in her intro about 
working on legislation. We did the Azerbaijan bill, and she was 
the one who did yeoman's work on that piece of legislation, 
which helped get political prisoners out of Azerbaijan. So 
thank you for that. But you mentioned, again, and thank you for 
all your recommendations, that we work actively with the 
European Union. Would you also extend that to the African 
Union, which increasingly has Chinese companies, and they bring 
their own laborers in, as we know, and the OAS? Because we see 
a huge presence of Chinese companies and the--government and 
companies all over. And they're usually one and the same.
    And finally, to Mr. Vogt, if you could just speak to the 
surveillance state; we've never seen anything like this 
throughout all of China. And it seems it's with particular 
ubiquitousness--(laughs)--if there's such a word--in Xinjiang. 
There are no labor rights. Both Democrats and Republicans here 
in the Congress--I've chaired hearings on the fact that ILO 
standards are broken with impunity by the Chinese government 
all the time. And now we see with forced labor it's gone to a 
lower degree on that order. What does the UN do? What does the 
ILO do? What does the Human Rights Council do when these rights 
are being violated with such impunity? And I thank my friend 
for yielding and look forward to your answers.
    Mr. Nova. It's impossible to know exactly how much auditing 
is happening right now in the XUAR and exactly where, because 
in addition to the Chinese government's strenuous efforts to 
prevent information from coming out of the region, the auditing 
industry itself is quite opaque. There's very little public 
disclosure. But we do know auditing is happening. We know of 
specific audits conducted at specific workplaces as recently as 
late last year.
    And it's important to note that as the pressure mounts on 
the global apparel industry and other sectors, as the pressure 
mounts on specific Chinese companies to take action with 
respect to these issues, there will be more demand for auditing 
because companies like Huafu Fashion and Esquel will need 
something to show their customers. Brands will need something 
to show their customers. And so it's critical for auditing 
firms, for certification bodies, to understand that they cannot 
now be engaging in labor rights audits in the XUAR. And if 
they're doing so, they themselves are complicit.
    This is why our organization joined with one of the leading 
researchers on human rights in the XUAR, Dr. Adrian Zenz, to 
send a letter this week to major auditing firms and 
certification bodies asking them to commit as a matter of 
corporate policy to suspending all auditing in the XUAR. And 
we'll be reporting on the responses of the audit firms and the 
certification bodies to that request.
    Representative Smith. Thank you. Shelly.
    Ms. Han. Yes, thank you. Congressman Smith, you know better 
than anybody what it takes to get the Chinese government to 
change, or not change. And I think that your question is 
exactly right. It's not just getting the European Union. It's 
getting every government we can, every industry, and every 
country that we can, to speak out about this because that will 
create the critical mass where China has to listen. So I think 
we're hamstringing ourselves if it's only a U.S.-led effort.
    Representative Smith. Thank you. Mr. Vogt.
    Mr. Vogt. Thank you for those good questions. With regard 
to the ILO, and to your underlying point, yes, I think the 
violations of fundamental labor rights have been a problem 
within China for a very long time. And this Commission in 
particular has shined a light on that consistently. The ILO, to 
this point, has recently taken up a case filed by the 
International Trade Union Confederation around the violation of 
freedom of association, in particular the retaliation, and 
arrest and disappearance of workers around the Jasic Technology 
case just a couple of years ago. And we've seen a real 
tightening of the space in which labor activists can work under 
the Xi Jinping administration.
    I mean, the ILO as a body, obviously, does what its 
constituents tell it to do. So I think certainly the U.S., 
within the ILO system, can be trying to move this issue within 
the governing body and trying to make this a discussion which 
obviously, as you mentioned, touches the whole world. There 
needs to be a global response. And the ILO is well situated to 
do something about it, if it is called upon to do so. So that 
would be good. And equally with regard to the United Nations, 
the U.S. and others--a leading voice within these global 
institutions, putting this on the agenda is something strongly 
needed.
    Representative Smith. I would just conclude--and I thank my 
friend for yielding this time--I mentioned earlier about the 
trip to China, to Beijing, in 1991, in March. We literally 
got--and the warden at Beijing Prison No. 2 couldn't believe we 
got into this horrible prison camp where men had shaved heads; 
they looked like concentration camp victims, which they were. 
And we took the products back, went to customs enforcement 
here, and got an enforcement ban. And it closed down that 
gulag--only to be opened up somewhere else. So it was a 
horizontal transfer.
    But I say this because the superficiality of having an 
MOU--time and time again when I and others would raise it with 
both the Bush Administration, that's George Herbert Walker, and 
the Clinton Administration, they said: But we have an MOU with 
China on gulag-made labor, to enforce Smoot-Hawley. And it 
wasn't worth, as I said earlier, the paper it was printed on, 
because we tell them of something that we think is happening, 
and then they investigate and give us a report. Good luck with 
that.
    It's superficial. And I'm afraid that we may see some kind 
of response that would parallel that as this legislation makes 
its way. You know, that's why the rebuttable presumption is the 
core of this legislation. And I think we all have to keep our 
eye on that ball so that whole region is sanctioned for the 
importation of slave-made goods. And I thank you.
    Mr. Stivers. Great. Thank you. Now we'll open it up to the 
audience for questions for the panelists. We don't have a 
roving microphone, so if you all could speak up when you ask 
your questions, and also please identify yourself. And if you 
work for an organization, please identify that organization 
also. And of course, Commission staff should feel free to ask 
questions also.
    Who wants to be first? Louisa.
    Q: Thank you. Louisa Greve from the Uyghur Human Rights 
Project. Thank you all for very powerful testimony, and 
everyone on the Commission for powerful questions, and a great 
report.
    My question is about the Congress responding to the overall 
crisis, the persecution of the Uyghurs. Just yesterday there 
are now 50 cosponsors of the Uyghur Human Rights Policy Act, S. 
178, and with the original cosponsor, Senator Rubio, who was 
here, it's now a majority. Could we have some comments perhaps 
from Mr. Smith about the path forward to get that passed?
    Representative Smith. Obviously, the legislation passed 
here, you know, the original bill. I had introduced a facsimile 
that was then overcome by the Rubio bill that came over. But it 
had 127 cosponsors. You know, the actionable part is probably 
what has been the problem with that legislation. It's a very 
good--you know, the idea that sanctions would follow. The 
problem with the Senate is the filibuster. The problem with the 
Senate is holds that could be put on any bill. I mean, we have 
400-plus bills pending over there. I have one on combating 
anti-Semitism. Still hasn't moved. There are others that have 
holds. It is an institutional problem that you need 60 votes to 
do anything in the United States Senate.
    So 51, clear majority. I'm for scrapping the filibuster at 
the earliest possible time because it so inhibits good 
legislation that often passes the House. And you might want to 
speak to this as well. But that is the problem--supermajorities 
for just everyday bills that make a difference.
    Mr. Stivers. Yes. I don't have any other comment, except to 
say that from Congressman McGovern's standpoint, he's pushing 
to get it passed in the Senate as soon as possible.
    Questions for the panelists? Back there.
    Q: Hi. Rayhan Asat. I'm an attorney actually working on 
this particular issue. I know that internationally there is 
legislation. For instance, in the U.K. their (inaudible) Act, 
and in Australia, which was inspired by this specific 
legislation. Is it possible for us to mandate and require 
companies to, on their labels, make sure they state that it is 
ethically sourced? Is this something that is ethically sourced?
    Mr. Nova. In theory, yes. And certainly--I agree with the 
premise of your question, that there should be transparency and 
disclosure. Of course, the great challenge in such an 
enterprise would be verification. There is a massive auditing 
industry, as we were discussing earlier, in the garment sector, 
and in other sectors, in electronics. And its track record is 
poor in terms of actually uncovering the reality of what is 
taking place in workplaces. So I think a label without an 
effective verification mechanism would probably only serve to 
create the appearance of progress, rather than to create 
progress. But the idea itself is sound. The challenge is: How 
do you ensure that there's genuine verification and 
enforcement?
    In the case of the issue of what's taking place in the XUAR 
and U.S. corporations in particular, we do have strong U.S. law 
ready, and other law that is now in process. And so hopefully 
we will see the law actually serve as an effective mechanism 
for addressing labor rights and human rights issues in global 
supply chains in other countries that are not normally 
addressed via U.S. legislation.
    Mr. Stivers. Thanks. Sophie.
    Q: Hi. I'm Sophie Richardson from Human Rights Watch. Thank 
you for the fantastic panel. Maybe if any of you could tell us 
a little bit about what you think the prospects are either for 
activating more consumers--since a number of the brands that 
you've identified are obviously hugely popular ones--but also 
about the possibility of mobilizing shareholders? Thanks.
    Ms. Han. I can't talk about consumers, because that's not a 
role that we play in terms of activating consumers. We 
certainly hope that they're interested in the responsible 
sourcing of the companies that they buy from. But in terms of 
getting them to pay more attention to it, I'd have to defer to 
other organizations who specialize in that.
    In terms of mobilizing investors, I think that that's 
something that certainly we've all been thinking about on all 
issues. And I've been a little bit surprised that some 
investors haven't taken this up more quickly. But it's a good 
idea.
    Mr. Nova. There is growing interest in the investor 
community. And I think there will be action and pressure coming 
from that community.
    With respect to consumers, one thing that is clear is that 
brands and retailers in the garment industry and beyond 
understand that this issue carries enormous reputational risk. 
That consumers do not want to buy products associated with the 
horrors unfolding in Xinjiang. And corporations recognize that 
that risk is growing as there is more attention and scrutiny, 
partly as a result of the work of this Commission and many 
other actors in this process, and an increasing recognition on 
the part of brands and retailers that there isn't an 
alternative to leaving.
    Mr. Stivers. Next question?
    Q: I'm Allison Sherlock from the Eurasia Group. Ms. Han, 
you briefly mentioned poverty alleviation in China. Could you 
elaborate a little bit on the relationship between China's 
domestic poverty alleviation campaigns and forced labor? Thank 
you.
    Ms. Han. Sure. And I want to be clear, I used the term so-
called poverty alleviation, because I don't agree with the 
terminology. It's a Chinese government term. And really it 
serves as an excuse by the Chinese government to place Uyghurs 
in jobs.
    Q: Hi. Cathy Feingold, international director at the AFL-
CIO and deputy president at the global labor movement 
International Trade Union Confederation. I want to thank 
everyone today--the panelists, the great work of the staff who 
did this report, and really just go on record for our support 
for the legislation today. We just released a press release 
about this and really want to reinforce our commitment to 
working with everyone here. It absolutely will take working 
with all of you in government, with the business community, and 
with civil society to really solve this problem. We need to act 
quickly. We need to take these great conversations that are 
happening in places like this and really move to action. So 
thanks so much for organizing this today.
    Mr. Stivers. Thank you, Cathy. And thank you for the AFL-
CIO's support for the legislation. It's really appreciated and 
a big boost. Next question.
    Q: Hi. Max Gelber, Uyghur American Association. Mr. Nova, 
you talked about alternatives and the difficulty with companies 
identifying alternatives in their supply chains. Could anyone 
on the panel comment a little further about that, and how we 
overcome that immense challenge, especially when we talk about 
way upstream when it comes to raw materials like cotton in the 
Xinjiang Uyghur Autonomous Region?
    Ms. Han. Yes. It is--it's not something that most companies 
are used to doing. I think after the Supply Chain Act was 
amended in 2016 and began being implemented, companies realized 
that they did need to start looking downstream in their supply 
chains, or upstream, whichever way you want to look at it. And 
so we've been doing quite a bit of work with companies on 
helping them map their supply chains and understand how they 
can talk to different suppliers. Most companies' responsible 
sourcing efforts focus on tier one, which is the manufacturing 
level, that's the factory themselves, because that's where they 
have the contractual relationship, and thus the leverage with 
their buyer with that factory.
    Most companies don't have any contractual relationship 
further down. So wherever the yarn is coming from, or wherever 
the textile or the fabric is coming from, they don't have that 
relationship. There are exceptions to that, but in general. So 
for them to understand, that does take time. And it depends on 
the size of the company whether or not they have the types of 
resources to figure that out. But we're working actively with 
companies to help them understand those relationships.
    Mr. Nova. But only the brands and retailers themselves know 
at a great level of detail how this question can be answered. 
Their supply chains are not transparent enough for anyone 
outside to have a full understanding. There is no question that 
there are logistical challenges in terms of alternate sourcing. 
And that's something all of us need to understand. It's a 
practical reality. At the same time, the brands and retailers 
have the ability to move quickly if their goal is to move 
quickly. And what brands and retailers should be doing is 
finding out just how fast they can move to extract themselves 
from a situation in which every day within their supply chains 
they're complicit in human rights abuses.
    Q. Can I ask a followup? It seems to me, given that there's 
forced Uyghur labor being transferred to work in factories in 
greater China, rather than simply in the Xinjiang Uyghur 
Autonomous Region, that even if you were to deem the whole 
region as a no-go zone for companies as an explicit forced 
labor zone, that wouldn't capture all, maybe not even a 
portion. Can you talk about that a little bit?
    Mr. Vogt. You're absolutely right about that. And yes, I 
think that's why many groups have been calling for action to be 
taken not only with regard to those factories that are 
physically housed within the XUAR, but also recognizing that 
those factories are outside the XUAR, and frankly it was the 
subject of the APSI report that came out just very recently, 
that identified a number of the brands that people have 
mentioned today; that those are not necessarily factories in 
the region but are government-transferred workers from the 
region to factories throughout China. So absolutely, it needs 
to be a comprehensive plan that weeds out the entirety of the 
forced labor apparatus, wherever it may be in China.
    Mr. Stivers. OK. Next question. Commission staff? Megan 
Fluker, one of the authors of the Forced Labor report.
    Q: Sorry. You don't have to turn. (Laughs.) This is mostly 
for Mr. Vogt, but anyone can kind of jump in. I think that 
we've rightfully been focusing on the impact of this on Uyghurs 
and other ethnic minority workers. But I'm curious, how does 
forced labor within global supply chains impact labor rights 
internationally, and potentially impact workers in the U.S.?
    Mr. Vogt. Right. I think--I don't have the estimate right 
off the top of my head, but the ILO routinely puts out the 
number of people who are in forced labor in any given year, 
which is, you know, tens of millions of people. So this is 
being brought to our attention in large part because of it's 
the factor of government policy that is driving this, again, 
based on people's religious or ethnic identities; that there 
are millions of people around the world who are in forced 
labor, trafficked for forced labor. And in many cases, they are 
working for products that are eventually exported around the 
world, including here to the United States.
    And again, we've seen CBP in the last couple of years 
obviously taking action not only with regard to China, but a 
number of other countries. Certainly the Trafficking Victims 
Protection Act could be much more robustly used to weed out 
forced labor and trafficking for forced labor in supply chains. 
As I mentioned, it was specifically amended in 2008 to really 
address supply chain issues. Others have mentioned the 
Magnitsky Act. There are a number of tools that are available 
to us. We just need a concentrated plan and the political will 
to do it.
    Mr. Stivers. Next question?
    Q: Hi there. Michael Sutherland with the Congressional 
Research Service. I was wondering if anyone on the panel can 
speak to the role Bingtuan, or the Xinjiang Production and 
Construction Corps, plays in the forced labor in the region. 
Thank you.
     Mr. Nova. The Bingtuan, the XPCC, has historically, and 
currently plays a massive role in the cotton industry in 
Xinjiang, still controlling about a third of all cotton 
production. And apart from the acute crisis of forced labor via 
the internment camp system and the broader use by the Chinese 
government of forced labor as a means of social control in the 
XUAR, the XPCC has long operated its own prison labor system, 
further exacerbating the situation for Uyghurs and others in 
the XUAR.
    It is an indication of how deeply embedded the garment 
industry has been in the XUAR, that the Better Cotton 
Initiative, an important industry organization that does 
environmental and social certification of cotton farms, a 
partner of many of the leading brands and retailers in the U.S. 
who use certified cotton from BCI in their production--that BCI 
up until a year ago, as recently as less than a year ago, had 
XPCC as a main implementation partner for its program in the 
XUAR. Now, to its credit, it's important to note that BCI 
either has announced, or will later today, that it is 
suspending its licensing and certification operation in the 
XUAR. This is a significant step for the industry.
    They're doing so because they recognize that there is no 
way to do credible labor rights assurance under present 
circumstances. And I think that move by Better Cotton 
Initiative, by BCI, is going to be the beginning of a broader 
and accelerating process of exit by the garment industry from 
the XUAR.
    Mr. Stivers. Congressman Smith.
    Representative Smith. Just very briefly. Mr. Vogt, on the 
issue of the Trafficking Victims Protection Act . . . as you 
may know, I'm the author of the original TVPA and co-sponsor of 
the Wilberforce Act in 2008, which Howard Berman was the prime 
sponsor of. Is it your view that the Trafficking in Persons 
office is not doing what it could do? You know, we need to know 
what you really think on this. Ambassador Richmond I think is a 
very, very credible and effective leader of the TIP office. 
What more can we be doing? And what constructive criticism can 
we bring back to them?
    Mr. Vogt. Thank you. As you know, there are the civil and 
criminal provisions of the Acts. You know, I think certainly 
there is much more forced labor that is linked to goods that 
are being imported into the United States, so I think, 
certainly, more resources to the TIP office could help with the 
focus on supply chains. I think much of the work of the office 
has really been focused on sex trafficking, and obviously 
that's a very important issue. Both with regard to forced 
labor, and in particular forced labor in supply chains, I think 
there could be more resources and more fruitful output in that 
direction. We do have a migration specialist in my organization 
who I can have come back with more ideas on this, but certainly 
I think the resources would be useful.
    Representative Smith. That'd be great. I'd be more than 
happy to put together a meeting with him and his top people and 
you to talk about that. Thank you.
    Mr. Vogt. Sure. That'd be great. Thank you.
    Mr. Nova. Rushan had a comment on the Bingtuan.
    Ms. Abbas. Yes, I just wanted to add a couple things on 
that so-called poverty alleviation and also on the Bingtuan. 
The Uyghur economy has been completely destroyed by the Chinese 
Communist regime. The Uyghurs' wealth, and houses, and land are 
being redistributed to Chinese settlers. And Bingtuan has been 
operating, as Mr. Nova said, for years under the name of 
political prisoners and the different systems, and also even 
long before that, forced labor has been something that the 
Chinese government was conducting for years under the name of 
hashar, which is taking the Uyghur farmers and the Uyghur 
people out, filling quotas from the neighborhoods and towns; 
just take them out, just make them work for free. So basically, 
hashar, what the Bingtuan was doing, is all just modern-day 
slavery that the Chinese government was getting away with for 
years. Just wanted to add that. Thanks.
    Mr. Stivers. Thank you. I'll take a moment to ask my own 
question. When we bring up this issue with companies, we 
usually get an answer that they can't possibly monitor every 
aspect of their supply chain because it's too complex and we 
just don't understand the complexities there. Or the other 
answer is that it will take too long; it will take years to 
actually shift some of these supply chains. How would you 
answer that question?
    Mr. Nova. When you ask the sourcing director of an apparel 
brand or retailer, the person who organizes and runs the supply 
chain, the question: How long will it take to get out of 
Xinjiang--and indeed, this question is being asked within 
companies, of the sourcing directors, by the executives within 
the companies responsible for labor rights issues--the answer 
you'll get is something like three to five years. But the 
reason that's the answer is because the sourcing director is 
hearing the wrong question. The question the sourcing director 
is hearing is: How long would it take if the company wanted to 
avoid all inconvenience, all cost, all supply chain 
disruption--if the priority is the company's immediate 
interests. That's not the right question at this juncture. 
There's going to need to be some inconvenience. There is going 
to be some cost. There is going to be some disruption. The 
priority has to be compliance with the law and the human rights 
of people in Xinjiang. And if a corporation makes that the 
priority, then the question can be answered not in a matter of 
years, but in a matter of months.
    Mr. Stivers. Amy Reger, from the Commission staff.
    Q: I have two questions for you guys. One is, are there 
currently sufficient alternative sources to the XUAR for cotton 
and yarn? And the second question is, what have the recent 
experiences with how companies have reacted to the impact of 
the coronavirus situation shown you in terms of these 
companies' ability to deal with supply chain disruptions?
    Ms. Han. Sure. Amy, I can't speak specifically to the world 
picture for cotton production, if we're just looking at cotton. 
But it is something that companies are looking at. And it will 
create huge shifts in markets, I think. But what we're looking 
at is, we want to make sure that as the shift takes place, we 
don't want to inadvertently then create more human rights 
issues in the places where companies now will shift their 
purchasing. So if it's India, or somewhere in sub-Saharan 
Africa, or somewhere else where they're going to be sourcing 
this cotton, we want to make sure that labor standards are 
respected there as well. So that's what we've been focusing on.
    And then in terms of the coronavirus, I'm not sure that I 
have a lot to say. I think it's another lesson for companies in 
supply chain flexibility. I think we all as consumers have seen 
what overreliance, maybe, on a market can do. But I don't have 
anything specific related to coronavirus and the Uyghurs.
    Mr. Nova. And quickly, on the issue of alternate sources. 
The primary issue here is cotton. Yarn is significant in the 
XUAR but it's still less than 5 percent of China's yarn 
production. Cotton is a bigger issue, because it's 20 percent 
of the global supply. It's also a particularly important 
supplier of what's called extra-long staple cotton. This is 
longer fiber, higher-quality cotton. It's used, for example, in 
better men's dress shirts. But there are alternative sources in 
general, and for extra-long staple. The two next-largest 
producers of extra-long staple cotton are the United States and 
Egypt.
    There are sources around the world for the various types of 
inputs that the industry needs. I agree with Shelly that 
shifting to new sources means addressing human rights issues in 
the countries that become more important sources. But necessity 
is the mother of invention. And it is necessary for brands and 
retailers to find these sources quickly and access them.
    Ms. Han. And I would also just add that the human rights 
issues that are happening in Xinjiang are not the same as those 
that are happening in India, or Egypt, or even in U.S. cotton 
production. And we know there are ways to overcome those using 
our traditional responsible sourcing methods. Whereas in 
Xinjiang we can't. So you know, even despite those 
difficulties, we still think that it's necessary.
    Mr. Stivers. Thank you. Questions from the audience?
    Q: Hi. Max Gelber, Uyghur American Association. Are there 
any companies that you can point to that these companies should 
benchmark themselves against, and say, well, they did a really 
good job, let me follow in their footsteps--historically or 
what they're doing right now?
    Ms. Han. I can't speak to specific companies. I would get 
in trouble for that. (Laughs.) We have a lot of members who do 
a lot of really great work. And so I really can't call out one 
more. But maybe Scott can.
    Q: Name a few?
    [Laughter.]
    Ms. Han. Yeah.
    Mr. Nova. No, I mean, we're not aware of a company that 
has, at least publicly, acknowledged that it's extricated 
itself from the XUAR at every level of its supply chain. I do 
think, though, that in the not-too-distant future, there will 
be companies that step forward and make that commitment and set 
a model for the industry for others to follow. I do think that 
companies will step up. That there is a recognition within the 
garment industry in particular that this is not a normal issue. 
This is not the usual labor rights or human rights issue that 
the industry confronts. This is unprecedented, it's 
fundamentally different, and it requires a fundamentally 
different response.
    Mr. Stivers. Didn't Badger Sportswear----
    Ms. Abbas. I was just about to say----
    Mr. Nova. Oh! After the documentation of forced labor at 
the Hetian Taida factory, which we contributed to--although 
it's important to note that it was the Associated Press that 
first found the connection between that factory and Badger 
Sport. Badger Sport is a relatively small brand in the U.S. 
that's a licensee of universities. They did agree, in response 
to a report we produced, not to do any sourcing from the XUAR. 
Badger understands that in the context of garment assembly. 
It's unclear to us whether Badger has extricated itself at the 
level of cotton, at the level of yarn. They may have. Their 
supply chain is much smaller. But they did at least make a 
commitment not to do any sourcing, as they conceive of it, in 
the XUAR.
    Ms. Han. And I would just add that just because you haven't 
read in the New York Times that companies are doing something, 
it is happening. It has taken time, but there are companies 
that are well on their way to taking actions that they think 
are appropriate for their supply chain. (Laughs.) But it is 
difficult to talk about it publicly at this moment, simply 
because they may not be completely there and there's other 
considerations. So I think that just because you're not reading 
about it doesn't mean it's not happening. And hopefully they 
will--as Scott said, they will be talking about that 
eventually.
    Q: Name a few companies that may be highlighted instead of 
just one?
    Ms. Han. Yeah, sorry. (Laughs.)
    Mr. Stivers. She'll be happy to highlight companies that do 
so.
    [Laughter.]
    Ms. Han. Yeah. Yeah.
    Mr. Stivers. Sophie? Sophie Jin from the China Commission.
    Q: Hi. I wonder if the panelists could speak to what you 
think appropriate remediation by the companies ought to be in 
this situation, and also perhaps by auditors as well.
    Mr. Nova. Do you mean at the level of specific workplaces 
where violations are identified? Or do you mean in----
    Q: For workers who are victims who have been harmed by 
forced-labor practices.
    Mr. Nova. Does someone else want to take that?
    Ms. Abbas. I think in many companies maybe they are not 
aware of what's happening, and they are sourcing factories 
there. So it's--we are not here to try to bash them or try to 
blame them for what's happening. But really we hope that now, 
with the ASPI report, they are going to just end what they are 
doing in our homeland. And this is, as I mentioned in my 
opening remarks, it's complicity with genocide. They need to 
realize that ``made in China'' right now is almost like ``made 
with forced labor''--when you look at every company almost, in 
other parts of China--they are sending a few hundred to a few 
thousand Uyghurs as, let's say, cheap labor or slaves. So they 
need to investigate, and they need to look into stopping doing 
business as usual with China. That's something that every 
company should consider. Thank you.
    Ms. Han. You know, remediation is really, after the problem 
is found, how do you fix it? You know, how do you know--OK, you 
found it, you've got to fix it. And, you know, for us, 
effective remediation has at least two key elements. And the 
first one is that the worker who suffered the abuse is made 
whole . . . that there's some sort of way that they're made 
whole because of the abuse. And then the second is that the 
company identify the root cause or the underlying problem, so 
that it doesn't happen again, and they can fix that within--
with their supplier, or however that issue may have come up.
    You know, just as we can't do effective due diligence in 
Xinjiang, we also think that it's really difficult to do 
effective remediation as well. And so the tools that we 
normally have in our toolkit for working on these issues around 
the world require--you know, China requires us to revisit them 
and find out what new things--what new methods we might need to 
effectively remediate it.
    Mr. Nova. I agree with Shelly that just as the traditional 
auditing mechanisms aren't viable in Xinjiang, neither are the 
traditional industry remediation mechanisms viable within 
Xinjiang. Which is why the only answer is to exit. I think the 
situation with respect to factories elsewhere in China that may 
have imported labor from the XUAR is somewhat different and 
more complicated. And we could talk about that. But within the 
XUAR, there is no means of remedy.
    Mr. Vogt. And obviously the reason why we're calling for 
brands to be pulling out from the XUAR is not simply for the 
purpose of pulling out, but in the expectation that it changes 
government policy, and that it would not be possible for the 
government to continue this policy of reeducation and so forth, 
and internment, if essentially they're losing hundreds of 
billions of dollars as the industry moves elsewhere. So I mean, 
one of the expectations is that this realignment of the garment 
industry would have that impact. Obviously we would also expect 
people to be speaking out on this issue as a reason why they 
are pulling out.
    Mr. Stivers. Great. Thanks. I think we have time for one or 
two more questions from the audience. Luke Adams, another 
member of the China Commission staff.
    Q: Yes. We've talked a lot about what governments can do, 
what businesses can do. But what about consumers? I know we're 
all consumers in this room. And I think I don't speak just for 
myself when I say there's a little bit of concern. How do you 
know when you're purchasing something--is this made with forced 
labor from China? Is there--what can we do as consumers to be 
better purchasers of items?
    Ms. Abbas. When we look at the history, now history is 
repeating itself. The concentration camps in Germany, first 
built in 1933, and then twelve years later claimed millions of 
lives, while the world community continued to do business with 
Nazi Germany, enabling Germany's economy to murder more people. 
So now when we look at what's happening to Uyghur, Kazakh, and 
the other Turkic people, the first concentration camp in China 
was built under the Strike Hard Campaign in 2014. Six years on, 
the people are still doing business with China, traveling to 
China, buying ``made in China''--enabling China's economy to 
murder more people and continue its police state. So everyone 
should remember, when they see the label, ``Made in China,'' 
this is complicity with China's crimes against humanity, 
genocide against Uyghurs. So just stop buying ``made in 
China.''
    Mr. Stivers. Thank you. Any last questions? Well, I'd just 
like to thank you--thank you to the panelists for your 
excellent presentations and for your important work on forced 
labor and human rights in Xinjiang. Thank you to the China 
Commission staff for their important work. And thank you all. 
You all are experts on this issue in some way. Thank you for 
your excellent work on this. And for more information on the 
legislation that Congressman McGovern and Congressman Smith 
will be introducing in the House--they should introduce that 
today--and the Commission's happy to provide any more 
information on that legislation as it moves forward through the 
process. Thank you.
    [Applause.]
    [Whereupon, at 11:04 a.m., the roundtable was concluded.]

=======================================================================


                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                   Prepared Statement of Rushan Abbas

    Congressman McGovern, Senator Rubio, and distinguished members of 
the Commission, thank you for this opportunity to testify before you 
today on behalf of my own missing family members and the millions of 
Uyghurs disappeared into China's concentration camps and the world's 
largest government-directed human trafficking forced labor network.
    What is happening to Uyghurs and other Turkic people in West China 
today is common knowledge by now. The Uyghur culture and ethnic 
identity is stigmatized, and religion is demonized. Racism and cutting-
edge technology are being used in combination to exert control over all 
Uyghurs and they become victims of Chinese nationalism.
    My sister, Gulshan Abbas, a retired medical doctor, is one of these 
victims. She was abducted by the CCP on the 11th of September 2018, in 
retaliation for my speaking out at the Hudson Institute, a DC 
conservative think tank, about China's human rights abuses in Xinjiang. 
China has allowed no contact with her since she disappeared and has not 
even provided proof of life or her whereabouts.
    According to testimony from former inmates, detainees are subjected 
to mental and physical torture. China claims that these sprawling camps 
with barbed wire and armed guard towers are humane vocational training 
centers. This is a lie. Detainees include medical doctors, academics, 
professors, businesspeople, writers and professionals, as well as young 
children and the elderly, none of whom need job training. The Uyghur 
economy has been completely destroyed, and the government is 
distributing Uyghurs' wealth and re-allocating their land to Han 
Chinese.
    China's final solution to the Uyghurs is disturbingly clear and 
simple:

    1. In addition to our religion, to attack our cultural norms, and 
our language and ethnic identity.
    2. To silence Uyghurs who have a voice and who are respected in the 
community. The CCP is systematically targeting the Uyghur elite with 
the goal of totally purging anyone who might produce, extend, or defend 
Uyghur ideologies and values.
    3. To eradicate Uyghur identity by forcing Uyghur girls and women 
to marry Han Chinese. By forcing Uyghur women to share beds with Han 
Chinese men while their husbands are in the camps/forced labor 
facilities, the CCP is orchestrating mass rape. To unconditionally 
supervise Uyghurs by inserting Han Chinese cadres inside their homes 
under the ``Double Relative'' program, thus exposing women to sexual 
abuse. How are more people not disturbed by this? Where are the 
advocates, celebrities, and strong voices for the women's rights 
movement and the feminist movement?
    4. To target Uyghur children in an effort to wipe out the next 
generation. Over 500,000 Uyghur children have been sent to orphanages 
where they are indoctrinated in Chinese communist ideology. According 
to an RFA report, these kids are locked up like farm animals and many 
suffer severe injuries which oftentimes result in death.
    5. To send Uyghurs to facilities where they are subject to forced 
labor, in essence making them slaves. As per a recent report by ASPI, 
Uyghurs who, as the Chinese claim, ``graduate'' from concentration 
camps graduate into forced labor.

    Well-researched reporting indicates these camps serve to break 
people's spirit and to turn them into an abundant supply of forced 
labor.
    So, my question is this: Who is the buyer of my sister's forced 
labor? The Gap, L.L. Bean, Calvin Klein, or H&M--is my sister in one of 
your contractors' factories? Have you checked for the forced Uyghur 
labor the Australian Strategic Policy Institute's report found? Are you 
complicit in China turning a doctor into a textile worker as a forced 
laborer in your factories?
    Nike, is one of your largest factories in China using my sisters-
in-law as part of Uyghur forced labor from Hotan? One was a nurse and 
another a teacher--were they transformed by the camps into pliant 
workers and delivered as advertised under ``semi-military management'' 
to produce your shoes? And what about younger Uyghur women forced to 
work thousands of miles from Xinjiang so they will not bear children, 
like my third missing sister-in-law.
    The Bingtuan, the Xinjiang Production and Construction Corps, is 
most certainly by far the world's largest trafficker in persons for 
both forced labor and sexual exploitation. Yet it is somehow not 
sanctioned under existing U.S. laws. Why not? It's because China makes 
due diligence impossible in Xinjiang. U.S. Customs and Border 
Protection should immediately recognize Xinjiang as a Forced Labor Zone 
and sanction any company enabling Xinjiang to profit from slave labor.
    When my sister was taken by China, I had no idea that my search for 
her would involve finding out that U.S. companies are so shockingly 
complicit in disappearances. Seventy-five years ago, companies like 
Siemens, BMW, and Volkswagen used Jewish forced labor and are now once 
again complicit in their suppliers' use of forced Uyghur labor, making 
today's concentration camps a profitable venture. But this time the 
rest of the world's top companies have joined in such complicity.
    U.S. law requires Global Magnitsky sanctions on individual 
offenders and prohibits any trade in products made with forced labor. 
So who is preventing the enforcement of the law? Has Xi Jinping been 
granted veto power over U.S. laws? Exactly what part of ``Never 
Again!'' translates into not sanctioning the Chinese perpetrators of 
today's concentration camps and not separating them from their 
enablers?
    China's coronavirus response is highly concerning as Uyghur are 
being used as disposable labor to reopen idled factories and to be sent 
to Wuhan. It is China's authoritarian reaction that created this global 
pandemic. Its actions to deny, keep quiet, misinform, punish 
whistleblowers, and take a security crackdown approach, rather than one 
that saves as many lives as possible, is precisely what we should not 
emulate! Today, China is failing to empty its concentration camps for 
people's safety.
    It saddens me to see the venal ruthlessness of the world community, 
as they stand idle against this genocide of my people. Not only is 
China getting away with genocide, but it is getting ``rewarded'' with 
hosting the 2022 Winter Olympics. It angers me to see my sister and 
millions of other Uyghurs become the human collateral of international 
trade deals and economic benefits. It worries me to see China become a 
power able to strongarm the world with trade threats, the power of the 
Belt and Road Initiative, debt-trap diplomacy, and manipulation within 
the UN.
    Furthermore, China is bribing and leveraging some key politicians, 
the media, and scholars around the world and has successfully silenced 
international condemnation of its shameful crimes. What do you think is 
going to happen if this remains unchecked?
    Continuing to do business as normal with China today is to support 
the spread of China's totalitarian communistic nationalism to the 
world, and to be complicit in genocide. History will remember those who 
act and those who fail to do so. We are all responsible for what 
happens next.
    Thank you.

                                 [all]
</pre></body></html>
